Office of Inspector General


U.S. Department of State and
the Broadcasting Board of Governors




FY 2003 Annual Work Plan

Office of Inspector General FY 2003 Annual Work Plan   39
Table of Contents

FOREWORD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
VISION AND MISSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STRATEGIC GOALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
ONGOING AND PLANNED PROJECTS FOR FY 2003 . . . . . . . . . . . . . . . . . . . . . . . 5
STRATEGIC GOAL 1: FOREIGN POLICY
       PERFORMANCE GOAL 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
       PERFORMANCE GOAL 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
STRATEGIC GOAL 2: SECURITY
       PERFORMANCE GOAL 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
       PERFORMANCE GOAL 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
STRATEGIC GOAL 3: FINANCIAL MANAGEMENT AND ADMINISTRATIVE SUPPORT SYSTEMS
       PERFORMANCE GOAL 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
       PERFORMANCE GOAL 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
STRATEGIC GOAL 4: ACCOUNTABILITY
       PERFORMANCE GOAL 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
       PERFORMANCE GOAL 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
PROJECTS RELATED TO INTERNATIONAL BROADCASTING . . . . . . . . . . . . . . . . . . 27
PROJECTS SUPPORTING PRESIDENT’S MANAGEMENT AGENDA INITIATIVES . . . . . . . 29
PROJECTS SUPPORTING OIG STRATEGIC AND PERFORMANCE GOALS . . . . . . . . . . 31
GLOSSARY OF ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

                 Abbreviations Used in Categorizing Projects
                    AUD        Office of Audits
                     IBO       Office of International Broadcasting Oversight
                      ISP      Office of Inspections
                     INV       Office of Investigations
                       IT      Office of Information Technology
                     SIO       Office of Security and Intelligence Oversight
                    PMA        President’s Management Agenda
                       BI      Budget and Performance Integration
                       CS      Competitive Sourcing
                      EG       E-Government
                       FP      Improved Financial Performance
                      HC       Strategic Management of Human Capital
                       RS      Rightsizing Overseas Presence
Office of Inspector General FY 2003 Annual Work Plan                                                         37
Foreword

I am pleased to present the Office of Inspector General’s (OIG) FY 2003 annual
work plan for our oversight of the Department of State (Department) and the
Broadcasting Board of Governors (BBG). This plan identifies the new audits,
inspections, security reviews, and other activities that my office expects to
initiate, as well as prior years’ work that will be completed, during this fiscal year.

    The projects in this plan are presented under the specific strategic and
performance goals that they support. They were developed in response to our
long-term strategies for achieving our goals, the results of prior years’ work, and
the concerns of Department and BBG managers. In addition, they reflect our
increased focus this year on the priority concerns of the President—as identified
in the President’s Management Agenda and the Office of Management and
Budget’s Program Assessment Review Tool—and the Congress, especially home-
land security issues related to our consular, security, and intelligence oversight
responsibilities.

    This year’s plan continues my commitment to conduct post management
inspections of all overseas missions and domestic bureaus and full or limited-
scope security inspections of all overseas missions at least once every five years.
It expands the methodology for evaluating information security programs that
was successfully pilot-tested during FY 2002, to encompass information security
inspection evaluations of as many as 10 additional missions, as resources permit.
Where appropriate, it also coordinates our work with that of other OIGs, such as
the U.S. Agency for International Development, and the General Accounting
Office.

     Typically, 10 percent or more of our work—and as much as 40 percent of our
non-inspections work—is unplanned and initiated in response to requests re-
ceived during the year from the Congress, the Department, and the BBG. This
results in lower priority planned work being discontinued or deferred. Conse-
quently, it should be emphasized that this work plan is just that—a plan which
will be adjusted as circumstances and resources dictate to ensure that our
work remains current and responsive to the changing needs and priorities of
the Department, the Administration, the Congress, and the foreign affairs
community.
                                                                      Clark Kent Ervin




Office of Inspector General FY 2003 Annual Work Plan                                      1
2   Office of Inspector General FY 2003 Annual Work Plan
Vision

To support the Department of State and the Broadcasting Board of Governors in
achieving their missions as effectively, efficiently, and economically as possible.


Mission

The mission of the Office of Inspector General is to serve as an independent,
objective reviewer and evaluator of the operations and activities of the Depart-
ment and the BBG. We analyze those operations and activities with a view
toward promoting effectiveness, efficiency, and economy. We seek out instances
of fraud, waste, abuse, and mismanagement, and we work to prevent them. We
report to the Secretary of State, the BBG, and the Congress, keeping them fully
and currently informed of significant developments and serious concerns.


Strategic Goals

The strategic goals of the Office of Inspector General are to ensure that the
Department and the BBG:
•   effectively, efficiently, and economically advance the foreign policy of the
    United States.
•   adequately protect the people, information, and facilities under their control
    in the United States and abroad.
•   have the necessary financial and support systems and controls to meet
    legal and operational requirements.
•   ensure accountability and prevent or eliminate fraud, waste, abuse, and
    mismanagement in programs and operations.




Office of Inspector General FY 2003 Annual Work Plan                                  3
4   Office of Inspector General FY 2003 Annual Work Plan
Ongoing and Planned Projects for FY 2003

STRATEGIC GOAL 1: THE DEPARTMENT AND BBG
EFFECTIVELY , EFFICIENTLY , AND ECONOMICALLY ADVANCE
THE FOREIGN POLICY OF THE U NITED S TATES.
Performance Goal 1: Identify opportunities for improving the manage-
ment and operations of overseas missions, domestic bureaus, and
international broadcasting activities through post management and
thematic inspections, audits, and program evaluations.

Inspections of Overseas Missions and Domestic Bureaus: OIG inspects
overseas missions and domestic bureaus of the Department of State and the
Broadcasting Board of Governors. These post management inspections review
policy implementation, resource management, management controls, and
rightsizing of U.S. overseas presence, in support of the President’s Management
Agenda. Specific posts and bureaus to be reviewed in FY 2003 are identified in
the table below. PMA:RS (ISP)


                     Post and Bureau Management Inspections

Africa         Asia/Pacific   Europe         Latin America   South Asia   Bureaus

Abuja/Lagos    Apia           Belgrade       Brasilia        None         DS/OFM
  (CFR)        Canberra       Copenhagen     Georgetown       planned     EB
Antananarivo   Phnom Penh     Helsinki       La Paz                       IO
Luanda (CFR)   Rangoon        Lisbon         Mexico City                  L
               Vientiane      Madrid         Paramaribo                   S/CPR
               Wellington     Oslo           Port of Spain                USUN New York
                              Pristina       Quito                        WHA
                              Reykjavik      USOAS
                              Skopje
                              Stockholm
                              Tirana




Office of Inspector General FY 2003 Annual Work Plan                                      5
    Ongoing

    Inspection of the Helsinki Regional Monitoring Office: In conjunction with
    the management inspection of Embassy Helsinki, OIG will review the effective-
    ness of the International Broadcasting Bureau’s Helsinki Regional Monitoring
    Office. The office is responsible for supporting and coordianting the wsork of
    monitors who review broadcasts of the Voice of America and Radio Free Europe/
    Radio Liberty in terms of BBG performance measures for signal strength, clarity,
    and correct programming. (IBO)

    Performance Goal 2: Evaluate at least nine U.S. Government opera-
    tions and programs with foreign policy implications, especially those
    under Chief of Mission authority or related to international broadcast-
    ing and the free flow of information around the world; identify ob-
    stacles to Chief of Mission, Department, or BBG oversight and coordi-
    nation of the operations and programs; and recommend actions neces-
    sary to remove or overcome them.


    Ongoing

    Survey of Radio Free Asia Activities: Radio Free Asia (RFA) was created
    through the U.S. International Broadcasting Act of 1994. Although OIG has
    addressed specific issues involving RFA activities, RFA has not been reviewed by
    OIG in-depth. The project also will provide RFA and Congress with an overall
    assessment of RFA activities and will identify areas for further review. PMA:BI
    (IBO)

    Follow-up Survey of the Middle East Radio Network (MERN): In its
    March 2002 Survey of the Broadcasting Board of Governors’ Middle East Broad-
    casting Activities and Initiatives, OIG noted the importance of the Middle East
    Radio Network (MERN) initiative and made a commitment to conduct a follow-up
    review of MERN one year after it became operational. The follow-up review will
    examine whether MERN: 1) has increased the U.S. international broadcasting
    audience in the Middle East; 2) presents a mix of programming that includes
    policy components to offer an alternative to anti-American media in the region;
    3) has the transmitting capability to reach a significant audience; and 4) has
    complied with the previous OIG recommendations. PMA:BI (IBO)

    Domestic Passport Operations, Phase II—Passport Fraud Prevention
    Programs: This inspection provides a comprehensive appraisal of the Passport
    Office (CA/PPT) domestic fraud prevention program. Objectives of this inspec-
    tion are to determine whether: (1) fraud prevention is receiving appropriate
    priority and management attention, guidance and training is consistently applied
    among the regional agencies, and the Department is providing adequate guid-
    ance to fraud prevention managers; (2) the growing workload in the Bureau of



6                                   Office of Inspector General FY 2003 Annual Work Plan
Consular Affairs is impeding the ability of CA/PPT’s fraud prevention staff; and
(3) there is need for greater application of technology to detect fraud. (ISP)

Domestic Passport Operations, Phase III—Regional Passport Agency
Operations and Management: Phase III of the inspection of Domestic
Passport Office operations will examine how well the regional passport offices
have met the new challenges posed by increased demand for passports, pass-
port fraud, and a new case tracking and retrieval system, the Travel Document
Information System. OIG will provide a comprehensive appraisal of the man-
agement of CA/PPT operations and whether recent innovations such as intra-
office workload sharing, implementation of the digital photo process, and auto-
mated case tracking have met the goals of improving customer service and
increasing productivity. (ISP)

Survey of Overseas Visa Operations: This review will survey nonimmigrant
visa procedures and policies, especially waiver of personal appearance programs,
travel agency referral programs, and the coordination between agencies in the
mission on visa-related issues such as the Visas Viper Program. The survey will
address several other aspects of visa processing at posts abroad as directed by
the Visa Office in the Bureau of Consular Affairs, in coordination with the Bureau
of Intelligence and Research. The survey will assess Department efforts to
address weaknesses and vulnerabilities in the visa process created by resource
deficiencies in staffing, training, and processing facilities. (ISP)

Immigrant Visa Diversity Lottery Program: The diversity visa (DV) lottery
originally was intended to diversify the nation’s immigrant pool by establishing
immigration flow from countries that did not send large numbers of immigrants
to the United States. This review will describe the current DV immigrant pool to
determine if the program is meeting its original goals. The review also will exam-
ine DV fraud, with special emphasis on identity, occupation, and education fraud
in applications, as well as duplicate entries in the lottery drawing. In addition,
inspectors will test DV processing practices at selected posts to determine
whether posts are adhering to regulations. (ISP)

Inspection of the Bureau of Consular Affairs Visa Office: This inspection,
which is part of the five-year inspection cycle of the entire Bureau of Consular
Affairs (CA), will review the current management and operations of the second
largest section of the bureau. Objectives are to appraise overall management,
the operational support for visa-issuing posts abroad, and the administration,
implementation, and interpretation of visa laws and regulations related to, and in
support of, immigrant and nonimmigrant visa operations, both domestically and
abroad; and to review and appraise the visa liaison work with Congress, other
elements of the Department, other executive branch agencies, the public, and
diplomatic missions. In response to congressional proposals for improving border
security, OIG also will review planning and coordination of the functions in this
office with the new Department of Homeland Security, as proposed in H.R.
1510. (ISP)


Office of Inspector General FY 2003 Annual Work Plan                                 7
    Overseas Passport Operations: In order for all U.S. passports to be issued
    with digitized photographs to prevent imposter fraud by passport photo substitu-
    tion, the passport issuance process formerly performed at consular posts abroad
    was repatriated to the United States in May 2002. The adjudication of these
    overseas applications, however, remained with the accepting posts. Although
    these passports are issued by CA/PPT facilities at Portsmouth, NH, the adminis-
    tration and oversight of the overseas adjudications is performed by a totally
    separate entity within the CA Bureau, the Office of American Citizen Services.
    This inspection will evaluate the impact this bifurcated management has on the
    oversight of overseas passport operations, and the quality of adjudication of
    claims to U.S. citizenship by consular officers at posts abroad. Fraud and the
    faulty analysis of documentation submitted to support passport applications
    abroad have been encountered by the Department and are a serious vulnerabil-
    ity directly related to homeland security and counter-terrorism programs. (ISP)

    Status of the Merger of Worldnet TV with VOA: To obtain increased effi-
    ciencies in broadcasting, the Broadcasting Board of Governors notified Congress
    in February 2000 of its decision to merge Worldnet Television and Film Service
    with the Voice of America. A number of plans have been developed, but the
    merger still is not complete. In August 2002, OIG initiated a review of the
    merger to determine the status of the merger, its resource implications, and how
    VOA-TV and programs have been integrated. PMA:BI (IBO)

    Effectiveness and Implementation of OCB New Program Initiatives:
    OIG reviewed information on audience listenership and evaluated Office of Cuba
    Broadcasting (OCB) policies and procedures for acquiring additional contractor
    resources to assess the effectiveness of the OCB programming changes. The
    primary objectives of the review are to determine: 1) what the new program-
    ming changes were, 2) whether the changes had increased the audience size,
    and 3) how well OCB had implemented the changes in compliance with govern-
    ment regulations covering the hiring of talent contractors. PMA:HC (IBO)

    Enforcement of Export Controls: The National Defense Authorization Act for
    FY 2000 contains a requirement for the Inspectors General of the Departments
    of Commerce, Defense, Energy, and State to report annually with respect to the
    export of technologies and technical information to countries and entities of
    concern. OIG’s ongoing work in this area focuses on the enforcement of export
    control laws. OIG will report its results by the legislatively mandated reporting
    date of March 30, 2003. (AUD)


    Planned

    Refugee Admissions and Resettlement—Program Results: Each year the
    United States resettles more than 85,000 refugees from 65 countries. The
    Bureau of Population, Refugees, and Migration grants over $100 million to inter-
    national organizations and nongovernmental organizations (NGOs). Ten national


8                                   Office of Inspector General FY 2003 Annual Work Plan
NGOs maintain a nationwide network of more than 400 affiliates that provide
basic services for refugee resettlement. OIG will assess the progress made by
the Department and its NGOs toward establishing and meeting appropriate
performance goals for the permanent resettlement of refugees. PMA:BI
(AUD)

Diplomatic Security/Consular Affairs Overseas Fraud Prevention
Programs: During the past three years, pilot projects at three posts abroad
have attempted to combine Bureau of Diplomatic Security (DS) investigative
resources with consular section fraud prevention programs to combat high levels
of visa fraud. Even with memoranda of understanding between CA and DS,
these pilot projects have had limited success. This project will review the pro-
gram, as well as antifraud coordination in high-fraud posts without dedicated DS
staff, to determine what success, if any, the pilot project has achieved, and to
identify weaknesses in the implementation of the program. (ISP)

Inspection of the Bureau of Consular Affairs Executive Office and
Consular Lookout and Support System (CLASS): At the request of the
Department, OIG will review the Executive Office of the Bureau of Consular
Affairs. The inspection will include a review of CLASS, a name check system used
by consular officers to determine if visa applicants are suspected of being terror-
ists or could pose other security risks. (ISP)

Internet and New Technology Development—BBG: The transmission of
BBG programs is dependent on technology. However, BBG has moved slowly in
converting from shortwave to newer and different technologies for distributing its
message. New technology also may offer distribution options in some repressive
regimes where affiliates are not possible. OIG will review BBG’s use of the
Internet and new technology to determine whether BBG has a transmission
strategy based on the most cost-effective and efficient means of reaching
target audiences.     PMA: EG (IBO)

Cumulative Effects of Munitions Exports: The National Defense Authoriza-
tion Act for FY 2000 contains a requirement for the Inspectors General of the
Departments of Commerce, Defense, Energy, and State to report annually with
respect to the export of technologies and technical information to countries and
entities of concern. The tentative topic for the interagency OIG review to begin
in 2003 (with a legislatively mandated March 30, 2004, reporting date) is the
long-term, cumulative effect of munitions exports. (AUD)

Assignment Process for Hard-To-Fill Posts: The Department has
longstanding problems with staffing overseas. The General Accounting Office
(GAO) recently reported that problems with the Department’s open bidding
assignments system contribute to its staffing gaps at certain posts. The Direc-
tor General has said that the Department will ensure that “fair share” assignment
bidding rules are enforced to help alleviate staffing disparities. OIG will determine
whether the Department has improved its ability to address staffing needs at


Office of Inspector General FY 2003 Annual Work Plan                                    9
     hardship posts and other difficult-to-fill positions in the most recent assignment
     cycle, and whether additional actions are needed. PMA:HC (AUD)




     STRATEGIC GOAL 2: THE DEPARTMENT AND BBG
     ADEQUATELY PROTECT THE PEOPLE , INFORMATION , AND
     FACILITIES UNDER THEIR CONTROL IN THE UNITED S TATES
     AND ABROAD .
     Performance Goal 1: Assess the adequacy of Department and BBG
     security for their personnel, property, and information at overseas
     missions and domestic locations and ensure that, as appropriate,
     necessary corrective actions are implemented.

     Security and Intelligence Oversight (SIO) Inspections: SIO inspections
     assess the entire spectrum of security, including protection of personnel, classi-
     fied and sensitive information, and U.S. facilities and operations. Security experts
     analyze the full range of security programs under the chief of mission auspices,
     including physical, personnel, procedural, technical, and information security and
     emergency preparedness, and make recommendations to correct identified
     vulnerabilities. During FY 2003, SIO inspections and compliance follow-up reviews
     (CFRs) will be conducted at approximately 40 overseas missions. (SIO)


                             Security and Intelligence Oversight Inspections

     Africa         Asia/Pacific           Europe                 Latin America        Near East      South Asia

     Bujumbura      Beijing (CFR)          Belgrade*      Brasilia*                    None           None
     Harare         Kolonia                Berlin (CFR)   Hamilton                     planned         planned
     Kampala        Koror                  Copenhagen*    La Paz*
     Khartoum       Majuro                 Lisbon*        Mexico City*
     Kigali         Phnom Pehn*            Madrid*         Port of Spain*
     Lusaka         Rangoon*               Moscow (CFR)    Quito*
     Maseru         Suva                   Pristina*       USOAS
     N’Djamena      Vientiane*             Reykjavik*
     Yaounde                               USUN New York*


     *   Indicates limited-scope security inspection conducted in conjunction with a post management inspection.




10                                                Office of Inspector General FY 2003 Annual Work Plan
Ongoing

Management of Classified Holdings Overseas: Over the years SIO secu-
rity oversight inspections have reported problems at overseas posts with exces-
sive classified holdings, poor procedural controls, and frequent security incidents
(e.g. security infractions, classified information being processed outside controlled
access areas, close proximity of Foreign Service nationals to classified material).
In keeping with the intent of the Senate Select Committee on Intelligence’s
Report for the FY 2001 Intelligence Authorization Bill directing the OIG to conduct
annual follow-up reviews through 2006 of how well the Department protects
classified information, this review examines the management of classified hold-
ings overseas and includes a separate study of the degree to which communica-
tions security material and electronic information are protected (see below).
(SIO)

Control of Communications Security Materials and Electronic Storage:
This review is a subset of OIG’s review of the management of classified holdings
overseas and focuses on the degree to which communications security material
and classified electronic data are protected. (SIO)

Secure Shipments of Classified Information Processing Equipment: This
review examined whether the Department was shipping classified information
processing equipment securely. The review determined that the process to ship
this and other classified material securely existed, but that the Department had
not fully complied with all aspects of shipping classified material securely. (SIO)

Review of the Department’s Unit Security Officer Program: Congress
has mandated that the OIG review annually how well the Department is protect-
ing its classified information. While security is an individual responsibility, each
bureau has unit security officers (USOs) charged with overseeing the protection
of classified information in their bureaus. Previous SIO work has found these
individuals to be those in the lowest grades, with little training, and no real
authority. This review examines whether this situation has changed, including
whether training has improved; whether there are more senior people, including
security professionals, assuming USO duties; and whether individuals are more
aware of their responsibilities and fulfilling them conscientiously. (SIO)

Oversight of the Security of the Construction of a New Embassy Com-
pound in Beijing: The Department is undertaking the construction of a new
embassy compound in Beijing, China. Stringent security measures will need to
be applied to all aspects of this project, from the shipment and on-site storage of
building materials to having appropriately cleared people work on the project.
The immensity of this undertaking cannot be underestimated, either by the
builders or by the Department’s security structure. OIG will provide close,
coordinated security oversight of this project to ensure that problems are identi-
fied early and corrected. (SIO)



Office of Inspector General FY 2003 Annual Work Plan                                    11
     Management of Overseas Post Security Upgrade Projects: One of the
     Department’s major challenges is bringing overseas diplomatic facilities into
     compliance with established security standards. Currently, 80 percent of over-
     seas facilities do not meet all physical security standards. This project will review
     the Department’s management of physical security upgrades at overseas posts,
     focusing on small-scale security upgrade projects that are not major construction
     efforts. (SIO)

     Protection of Classified Documents at State Department Headquarters:
     The FY 2003 Intelligence Authorization Act mandates that OIG review the
     Department’s progress in protecting classified information. OIG found that the
     Department has made substantial progress in improving protection of classified
     information, particularly sensitive compartmented information, following several
     serious security breaches at its headquarters building between February 1998
     and January 2000. (SIO)

     FISMA 03—Department of State: The Federal Information Security Man-
     agement Act (FISMA) of 2000 mandates a comprehensive review of the
     Department’s information security program. This review will build on the results
     of the FY 2002 OIG FISMA review in assessing progress made in implementing
     FISMA and identifying possible obstacles to effective information security
     management. (IT)

     FISMA 03—BBG: The Federal Information Security Management Act (FISMA)
     of 2000 mandates a comprehensive review of the BBG’s information security
     program. This review will build on the results of the FY 2002 OIG FISMA review
     in assessing progress made in implementing FISMA and identifying possible
     obstacles to effective information security management. (IT)

     Information Warfare Issues: There are increasing concerns that the United
     States faces a so-called digital “sneak attack,” also known as a “Digital Pearl
     Harbor,” aimed at disrupting U.S infrastructures and foreign interests. This
     project will define information warfare (IW) from the Department’s perspective
     and will identify the major issues and operations associated with IW within a
     diplomatic context. OIG will evaluate the Department’s role in IW operations and
     defenses and will assess its efforts to work with the foreign affairs community
     and other interested entities. (IT)


     Planned

     Vulnerability of Department Systems through the USAID Network: In
     early 2002, the U.S. Agency for International Development (USAID) OIG re-
     ported on the results of its general controls review of USAID systems. The
     report noted significant deficiencies in USAID’s management of information
     security and suggested that, not only were USAID systems vulnerable, but so,
     too, were those operated by the Department because of connections between
     the two agencies’ respective networks. OIG will collaborate with the USAID OIG

12                                      Office of Inspector General FY 2003 Annual Work Plan
in testing the vulnerability of Department systems to intrusion from USAID’s
network. (IT)

Intrusion Detection Effectiveness: One of the most critical security threats
to an organization’s operations is from the so-called IT insider—IT workers with
extraordinary access to computer systems and databases, who, for whatever
reason, decide to use that access to disrupt an organization’s IT operations.
This project will assess the effectiveness of the Department’s intrusion detection
systems, particularly their ability to mitigate the security risks posed by IT
insiders. (IT)

Monitoring Contractor Performance in Worldwide Local Guard Pro-
grams: The main objective of this project is to determine whether the Depart-
ment has adequate systems and procedures in place to monitor contractor
performance of the Local Guard Programs (LGP). During this review, the team
will look at Diplomatic Security’s Program Management Reviews to date and at its
Guard Schedule Database initiative. Additional work at posts will focus on whether
the Regional Security Officer’s management of the LGP is adequately protecting
embassies and consulates and whether contract administration is adequate to
protect the Department’s interests. (AUD)

Background Investigations of Foreign Service Nationals (FSNs): FSNs,
who are essential to fulfilling the Department’s mission in U.S. diplomatic posts
overseas, must have security clearances. This review will examine the FSN
background investigative process to determine whether: 1) there are adequate
controls on background investigations; 2) these investigations are performed in
accordance with applicable security standards; and 3) these investigations are
performed in a timely manner. (SIO)

DS Overseas Technical Security Inspection Program: This review will
examine whether there are sufficient resources to perform technical security
inspections overseas; whether other duties of engineering services centers affect
their ability to conduct such inspections; and whether there are overlapping
requirements that may be eliminated by reducing the scope or frequency of
some inspections. (SIO)

Performance Goal 2: Identify vulnerabilities and recommend correc-
tive action with respect to information systems and security at no
fewer than 15 overseas missions.


Ongoing

Pilot Test, Information Security Inspection and Evaluation Methodol-
ogy–Lisbon: This project involves a pilot test of a comprehensive information
security methodology being developed to assess the effectiveness of post
information security programs. (IT)


Office of Inspector General FY 2003 Annual Work Plan                                 13
     Pilot Test, Information Security Inspection and Evaluation Methodol-
     ogy–Madrid: This project involves a pilot test of a comprehensive information
     security methodology being developed to assess the effectiveness of post infor-
     mation security programs. (IT)


     Planned

     Information Security Inspection Evaluations: The Department’s overseas
     posts are connected to the Department’s information technology infrastructure
     through both unclassified and classified networks. The objective of OIG IT
     security inspections is to promote effective information security management
     practices at Department field locations, using a detailed Information Security
     Guide to evaluate the effectiveness of the post’s information security program.
     In addition, at select posts, OIG will address specific issues, including the
     ambassador’s role in ensuring effective information security practices (non-State
     Department entities) and mission effectiveness in protecting against cyber-
     terrorism threat to the post and host-country critical infrastructure. (IT)


                         Information Security Inspection Evaluations

     Africa          Asia/Pacific   Europe        Latin America    Near East     Domestic

     Addis Ababa     Hong Kong      Athens        Buenos Aires     Cairo         None
     Dar Es Salaam   Seoul          Bucharest     Montevideo                      planned
                                    London
                                    Sofia
                                    Vienna




     STRATEGIC GOAL 3: THE DEPARTMENT  AND BBG HAVE THE
     NECESSARY FINANCIAL AND SUPPORT SYSTEMS AND
     CONTROLS TO MEET LEGAL AND OPERATIONAL REQUIREMENTS .
     Performance Goal 1: Identify challenges and vulnerabilities, with
     recommendations to address them, for at least 21 Department finan-
     cial and administrative support programs and activities.


     Ongoing

     Government Paperwork Elimination Act: The Government Paperwork
     Elimination Act requires federal agencies to take practicable steps toward e-
     government by 2003. This review assesses the Department’s plans to achieve


14                                       Office of Inspector General FY 2003 Annual Work Plan
its e-government goals and will identify obstacles to successful implementation.
PMA:EG (IT)

Department Efforts to Implement Knowledge Management and
E-Diplomacy through FASI: Knowledge management, a process that pro-
motes an integrated approach to identify, evaluate, and share information, is
considered to hold great promise for public and private sector organizations
seeking to leverage their experience across a wide variety of situations and
global locations. OIG is reviewing Department efforts—initiated, in part, in re-
sponse to recommendations of the Overseas Presence Advisory Panel—to
integrate knowledge management and e-diplomacy into its organization.
PMA:EG (IT)

Review of Knowledge Management Initiatives: Knowledge management
is a process whereby an organization uses its intellectual assets to get the right
information to the right people at the right time. This review is assessing the
Department’s plans and project management structure for implementing and
coordinating knowledge management initiatives. OIG also is identifying compa-
rable public and private sector initiatives to determine how leading practices from
these other efforts can be applied to the Department’s knowledge management
approach. PMA:EG (IT)

Review of Financial Assistance Management: Collectively, the Department
awards billions of dollars annually in financial assistance to a wide range of
recipients. Within the Department, various offices have responsibility for provid-
ing guidance related to managing financial assistance. OIG reviewed data
related to federal financial assistance awarded during FY 1998 through 2000 and
1) identified bureaus and offices within the Department providing financial
assistance; 2) ascertained the types of funding mechanisms used to award
assistance; 3) quantified the dollar value of assistance; and 4) identified policies,
procedures, and systems used to manage the assistance programs. In addition,
OIG reviewed actions the Department was taking to implement the Federal
Financial Assistance Management Improvement Act of 1999, which requires,
among other things, streamlining and simplifying the processes, administration,
and reporting procedures for federal financial assistance programs. PMA:FP
(AUD)

Overseas Building Operations (OBO) Design and Construction: The
review will be divided into two phases: design and construction. During the first
phase, the team will assess OBO’s capacity to carry out its new construction
program effectively and will evaluate the new design/build concept, including
related security issues. During the second phase, the team will determine
whether the program provides quality construction in a timely manner at a
reasonable price and whether construction contracts are properly administered
and incorporate security standards. During this review, OIG also will assess the
satisfaction level of the users and any suggestions that they have for changes
to the program. PMA:RS (AUD)


Office of Inspector General FY 2003 Annual Work Plan                                    15
     Bogotá Vehicle Procurement: In August 2002, the Chairman of the House
     Committee on Government Reform asked OIG to review the recent proposed
     procurement of a sport utility vehicle for Embassy Bogotá. The congressional
     request was made in response to several press reports criticizing the solicitation.
     The Chairman expressed concern that the solicitation contained unnecessary
     features, had an unusually short response time, and was canceled after press
     reports highlighted the luxurious features. OIG is completing its work and will
     issue a report during the next semiannual reporting period. (AUD)

     Audits of the Department’s Financial Statements for FY 2001: Congress
     passed the Chief Financial Officers (CFO) Act in 1990 and the Government
     Management Reform Act in 1994. These laws required increasingly stringent
     reviews of agencies’ financial statements, culminating in a requirement to audit
     each agency’s Departmentwide financial statements annually. In addition, the
     CFO Act requires that OIGs oversee any audits of other financial statements
     issued. The objectives of these audits include: 1) expressing an opinion on the
     financial statements; 2) evaluating and reporting on internal controls related to
     the financial statements; 3) reporting on compliance with laws and regulations as
     required during financial statement audits; and 4) reviewing controls in pertinent
     computer systems. PMA:FP (AUD)

     Consolidation of Financial Services at Charleston Financial Service
     Center (FSC): In December 2000, the Under Secretary for Management ap-
     proved the initial transfer of functions from FSC Paris and FSC Bangkok and
     certain domestic financial services to the FSC complex in Charleston. As part of
     this effort, the Department is converting all of the information on its two current
     overseas financial management systems onto a new overseas regional financial
     management system (RFMS). This is a significant initiative that will affect almost
     all programs within the Department and almost all future financial management-
     related audits, including the financial statements. The Department has devel-
     oped a plan to complete the consolidation that will be done in three phases, with
     phase one projected to be completed in FY 2003. The review will determine
     whether the Department is meeting interim deadlines during the consolidation
     and will identify weaknesses that could affect critical financial processes and
     preclude a smooth transition. PMA:FP (AUD)

     Domestic Travel Card Program: A travel card is a credit card issued to a
     government employee for expenses incurred while on official travel. Travel cards
     recently have become a focus for review within the government because of
     reports of credit card payment delinquencies and misuse. OIG’s objectives are
     to evaluate: 1) the Department’s efforts to prevent and detect travel card
     payment delinquencies, 2) internal controls for preventing and detecting misuse
     of the cards, 3) processes for dealing with instances of travel card abuse, 4)
     administrative oversight efforts to control the number of cardholders, and 5)
     performance goals for this program. PMA:FP (AUD)




16                                     Office of Inspector General FY 2003 Annual Work Plan
Status of the Department’s Financial Management Remediation Plan: In
1996, Congress passed the Federal Financial Management Improvement Act
(FFMIA), which required each OIG to determine, during the annual financial
statement audit, whether its agency’s financial management systems substan-
tially complied with federal financial management systems requirements, appli-
cable federal accounting standards, and the Standard General Ledger. OIG
contractors reported that the Department did not comply with the FFMIA,
beginning with the audit of the Department’s FY 1997 financial statements. In
addition, the Department has reported finanical systems as a material noncom-
pliance in its annual Federal Managers’ Financial Integrity Act report since 1983.
OIG will review the Department’s progress in meeting the plan’s target dates.
PMA:FP (AUD)

Review of Energy Conservation: The primary objectives of this review are to
assess the Department’s progress in meeting federal energy management goals
and to identify best practices that more Department offices could emulate
further to reduce energy consumption and costs. PMA:FP (AUD)

Monitoring Contractor Performance at the BBG: This audit represents an
effort to determine whether the BBG has effective systems and procedures in
place to monitor contractor performance. Specific objectives will determine
whether persons with performance monitoring responsibilities: 1) follow requisite
policies and procedures for monitoring contractor performance; 2) ensure that
contractor performance is in compliance with contract terms and conditions; and
3) possess the requisite training, technical expertise, and certification of qualifi-
cations to perform contractor performance monitoring. The audit universe
includes 88 BBG contracts, valued at more than $186 million, that were active
during FY 2000 and exceeded the simplified acquisition threshold of $100,000 in
the base year. PMA:FP (AUD)

Office of Foreign Missions Systems Contract: This review will examine
issues related to the award of a contract for the development and installation of
a new software system. (AUD)

DTS-PO Inventory: This review will determine the ability of the Diplomatic
Telecommunications Service Program Office (DTS-PO) to identify system assets
properly and will assess the interagency group’s methodology in establishing the
capital asset structure to be used in the valuation of DTS-PO property. The
evaluation will include property identification and control procedures integral to
the evaluation of inventory processes, particularly since DTS-PO has not con-
ducted an inventory of its accountable assets during its 10 year existence. OIG’s
efforts will include physical inventories at a number of locations worldwide and
the observation and testing of inventories performed by contract personnel at all
stateside locations, including DTS-PO headquarters. (AUD)




Office of Inspector General FY 2003 Annual Work Plan                                    17
     Electronic Records Management: Federal guidance requires agencies to
     make and preserve records containing adequate and proper documentation of
     the organization, functions, policies, decisions, procedures, and essential transac-
     tions of the agency. This includes not only electronic documents but e-mail
     messages that: 1) document the formulation and execution of basic policies and
     decisions, 2) document important meetings, 3) facilitate action by agency offi-
     cials and their successors, and 4) make possible scrutiny by the Congress and
     other authorized agencies of the government. During OIG’s recent review of
     the events surrounding a failed coup in Venezuela, OIG found that electronic
     records were not being maintained adequately by a number of Department
     offices. This review will assess the extent to which the Department is complying
     with federal guidelines concerning electronic records management. PMA:EG
     (IT)

     Review of Personnel Practices at RFE/RL: Personnel practices will be
     evaluated to determine whether the system used to classify employees, includ-
     ing the assignment of salary and benefits at RFE/RL, is equitable and cost
     effective. RFE/RL management uses temporary and contract workers to mini-
     mize the number of employees on payroll. OIG will determine whether tempo-
     rary and contract workers are misclassified and will assess the assignment of
     benefits to these workers as well as permanent employees. PMA:HC (IBO)

     Audit of the National Endowment for Democracy: The National Endow-
     ment for Democracy (NED) Act (Public Law 102-138), as amended, mandates
     that the OIG audit the annual financial transactions of the National Endowment
     for Democracy. Congress established NED in 1983 as a private nonprofit organi-
     zation to plan and administer grants promoting the development of democratic
     goals and institutions around the world. To carry out its grantmaking activities,
     NED receives an annual grant of about $30 million. To meet the Congressional
     requirement, OIG will conduct an analytical review of NED’s 2000-02 OMB A-133
     annual financial audits. PMA:FP (AUD)

     Audits of the Department’s Financial Statements for FY 2002 and
     2003: Congress passed the Chief Financial Officers (CFO) Act in 1990 and the
     Government Management Reform Act in 1994. These laws required increasingly
     stringent reviews of agencies’ financial statements, culminating in a requirement
     to audit each agency’s Departmentwide financial statements annually. In addi-
     tion, the CFO Act requires that OIGs oversee any audits of other financial
     statements issued. The objectives of these audits include: 1) expressing an
     opinion on the financial statements, 2) evaluating and reporting on internal
     control related to the financial statements, 3) reporting on compliance with laws
     and regulations as required during financial statement audits, and 4) reviewing
     controls in pertinent computer systems. PMA:FP (AUD)

     Review of Demining Contract Issues: The main objective of this project is
     to examine whether the Integrated Mine Action Support Contract was awarded
     in accordance with regulations and whether the contractor’s performance under
     the contract is being adequately monitored. (AUD)

18                                     Office of Inspector General FY 2003 Annual Work Plan
Review of Demining Contract Issues II: This project is a follow-up on
procurement issues raised during the review begun in FY 2002. It will focus on
training for procurement administration, management controls over the humani-
tarian demining program, and contracts and grants issues. (AUD)

Unauthorized Commitments—Domestic: This audit represents an effort to
determine what impact unauthorized commitments have on the Department’s
acquisition system. Specific objectives will determine: 1) to what extent reported
unauthorized commitments occur within the Department, 2) whether the process
for ratifying unauthorized commitments is working as intended, 3) to what extent
unreported unauthorized commitments are occurring within the Department, and
4) whether the Department trains personnel in the prevention of unauthorized
commitments. The audit universe includes 122 unauthorized commitments,
valued at $6.8 million, that were made between 1997 and June 2002. PMA:FP
(AUD)

Unauthorized Commitments—Overseas: This audit represents the over-
seas phase of OIG’s audit of unauthorized commitments (see above).
PMA:FP (AUD)

ONDCP Attestation Review: The Office of National Drug Control Policy
(ONDCP) Circular on Drug Control Policy requires that OIGs express a conclusion
about the reliability of their respective agencies’ reporting under the circular. For
the Department, this primarily requires reviewing funding documents for the
Bureau of International Narcotics and Law Enforcement Affairs. OIG will review
the Department’s reporting to ONDCP for FY 2002 in accordance with Standards
of Attestation Engagements promulgated by the American Institute for Certified
Public Accountants. (AUD)


Planned

Messaging System Modernization: After more than 50 years, the
Department’s telegram system needs to be modernized. The Department is
considering various alternative approaches, including using the long-delayed
Defense Messaging System. Under this review, OIG will monitor the
Department’s planning to replace its aging messaging system. PMA:EG (IT)

Review of the Integrated Logistics Management System (ILMS): The
Department is spending millions of dollars on a new logistics system that will
replace more than 25 existing logistics management systems, including ware-
house management, acquisitions, diplomatic pouch and mail, and property
management. Questions have arisen concerning the high cost, and whether the
system will meet the Department’s needs. OIG will assess the effectiveness of
the Department’s efforts to acquire and implement ILMS. PMA:EG (IT)




Office of Inspector General FY 2003 Annual Work Plan                                    19
     Data Reviews, Quality Control Reviews, and Contract Audit Services
     (Continuous): OIG will conduct various types of mandatory and requested
     audits and reviews. These efforts include analytical reviews of Office of Man-
     agement and Budget (OMB) Circular A-133 and Fulbright Commission audit
     reports, quality control reviews to ensure that the audit was conducted in accor-
     dance with applicable standards and meets the Single Audit requirements, and
     procurement of contract audit services with independent accounting firms and
     the Defense Contract Audit Agency. Analytical reviews and contract audit ser-
     vices will be used to ensure that administrative costs are reasonable and accu-
     rately distributed between the federal and non-federal activities and that grant-
     ees and contractors properly account for federal funds. These reviews identify
     grantees that require in-depth evaluations and external independent accounting
     firms that do not meet established auditing standards and also assist the Depart-
     ment in negotiating and awarding procurement activities. PMA:FP (AUD)

     Consolidation of Financial Services at Charleston FSC—RFMS Conver-
     sion: Although OIG does not intend to perform an overall review of the
     Department’s new RFMS, it will keep abreast of the development of this impor-
     tant system. OIG’s primary objective is to maintain continuing oversight of the
     RFMS conversion and provide feedback to Department officials, as appropriate.
     PMA:FP (AUD)

     Improper Payments: Improper payments indicate that agencies are spending
     more than necessary to meet program goals. GAO recently issued a report that
     indicated that improper payments are a significant and widespread problem.
     GAO reported that the root cause of improper payments typically can be traced
     to a lack of or breakdown in internal controls. Past OIG reports have identified
     payments made without appropriate documentation, duplicate payments, and
     payments for interest penalties that could have been avoided. The Department
     has instituted a number of improvements; yet interest penalty payments remain
     high, and complaints from serviced bureaus, offices, and other organizations
     continue. Reducing improper payments is an important ongoing
     governmentwide initiative. The overall objectives of the review would be to
     evaluate the effectiveness and accuracy of the payment process. PMA:FP
     (AUD)

     Post Assignment Travel: The Post Assignment Travel allotment funds the
     cost of travel, transportation, and related items in connection with the appoint-
     ment, transfer, and separation of the Department’s American full-time perma-
     nent staff and their families. For FY 2002, the Department asked for approxi-
     mately $107 million for post assignment travel. This audit would review the
     overall program and evaluate the Department’s policies regarding post assign-
     ment travel, determine whether the Department is complying with travel regula-
     tions and procedures, and assess the Department’s progress in addressing
     internal control weaknesses. PMA:FP (AUD)




20                                    Office of Inspector General FY 2003 Annual Work Plan
Audit of Unliquidated Obligations System and Procedures: As part of its
efforts to comply with the Federal Financial Management Improvement Act, the
Department developed and implemented an Unliquidated Obligations System and
procedures to facilitate the reconciliation, monitoring, reporting, and oversight of
unliquidated obligations worldwide. The Department reported that it used this
system to deobligate more than 60,000 items, totaling more than $180 million,
during FYs 2000 and 2001. However, the management of unliquidated obliga-
tions remains a reportable condition in the Department’s financial statement
audit reports. The FY 2001 report stated that, although the Department had
made significant improvements in this area, the internal control process related
to the management of unliquidated obligations was inadequate because it did
not provide effective control over funds. For example, the independent auditors
identified more than $300 million of undelivered orders that should have been
deobligated. The overall objective of this audit is to identify specific weaknesses
in internal controls over the management of unliquidated obligations and make
recommendations for improvements. PMA:FP (AUD)

Foreign Currency Management: The Department has the authority to
disburse payments in foreign currencies for all civilian agencies. To make these
foreign currency payments, the Department purchases more than $2 billion in
approximately 150 foreign currencies annually. The Department has taken steps
to consolidate the foreign currency purchasing function in FSC Charleston, includ-
ing installing industry standard computer hardware and software in use at most
financial institutions and transferring foreign currency purchasing previously
based in FSC Bangkok and some previously based in FSC Paris to FSC Charles-
ton. The objectives of this audit are to: 1) determine whether the methods used
to obtain currency are efficient and result in the best legal rate, 2) determine
whether foreign currency is maintained at low levels to reduce the risk of losses,
3) review internal controls over currency purchases, and 4) review the process
for standardization of the currency purchase process. PMA:FP (AUD)

Review of International Cooperative Administrative Support Services’
Budgeting and Billing: The International Cooperative Administrative Support
Services (ICASS) program allocates to each agency the full cost of its presence at
overseas missions. Through this program, the Department bills other agencies
for their share of ICASS costs ($229 million in FY 2001). During 1997, when
ICASS was still a pilot program, OIG reviewed its methodology for accumulating
overseas costs and some headquarters costs (e.g., salaries) and found that
ICASS was capable of delivering fair, understandable, reliable, timely, and
auditable financial information. However, since then, the billing process has
changed, and headquarters costs have greatly increased. In addition, although
ICASS costs were supposed to be transparent to all ICASS members, OIG has
been contacted by several other agencies that have said that they do not
understand how their bill is calculated. This audit will review the budgeting and
billing processes to determine the reasonableness of the cost allocation method-
ology and whether bills are appropriate and transparent. PMA:FP (AUD)



Office of Inspector General FY 2003 Annual Work Plan                                   21
     Monitoring Expired and Canceled Accounts: The majority of funds appro-
     priated to the Department are annual appropriations. If an agency fails to
     obligate its annual funds by the end of the fiscal year for which they were appro-
     priated, they cease to be available for obligation and are said to have “expired.”
     Annual appropriations remain available for an additional five fiscal years beyond
     expiration and then the funds are canceled and revert to the Department of the
     Treasury. The objectives of this audit are to review controls to ensure they
     provide reasonable assurance that the entity executes transactions in accordance
     with budget authority and other applicable statutes for expired and closed (can-
     celed) accounts. OIG would specifically review transactions in and adjustments
     to expired accounts and assess how the Department monitors canceled accounts.
     PMA:FP (AUD)

     Vehicle Management: The objective of this survey is to determine the status
     of the vehicle program and identify any major problems with the program that
     would warrant a detailed review. OIG often has found abuses involving vehicle
     use during the course of its inspections. In addition, vehicle fleets were allowed
     to deteriorate for lack of repairs, and vehicles were retained past the optimal
     retention point. (AUD)

     DTS-PO Financial Contributions: In March 2002, a Memorandum of Agree-
     ment was signed by the partner agencies and OMB that changed the manage-
     ment and operational structure of DTS-PO and required an audit to determine, to
     the maximum extent feasible, the financial contributions of each agency to
     DTS-PO. PMA:FP (AUD)

     FSN Compensation and Benefits: The Bureau of Human Resources, in
     consultation with regional bureaus, sets wage rates and benefit levels for FSN
     employees based on information submitted by overseas posts, including contrac-
     tor surveys. Wages and benefits for FSNs account for a sizable portion of the
     Department’s operating budget—almost $500 million per year. OIG will assess
     the Department’s methodology for setting FSN wage rates and benefit levels.
     (AUD)

     State/USAID Financial Management Integration: The Department and
     USAID, at the request of the Office of Management and Budget (OMB), will
     form a working group to study the feasibilty of combining components of their
     financial management systems, with the goal of better delivery of services and
     possible reductions in the cost to procure these services from an outside con-
     tractor. In conformance with the President’s Management Agenda, the group
     also will determine whether it is cost beneficial to outsource some of these
     services. OMB has asked OIG and USAID OIG to serve as monitors on the joint
     working group. The first phase, a feasibility study, is expected to take 30-45
     days. (PMA:FP, CS) (AUD)




22                                     Office of Inspector General FY 2003 Annual Work Plan
Performance Goal 2: Evaluate Department and BBG progress in mea-
suring performance and implementing the President’s Management
Agenda, and recommend improvements, as appropriate.


Ongoing

BBG’s Strategic Human Capital Management Plan: This is a comprehen-
sive review of BBG’s personnel administration practices to determine how it:
1) uses its strategic plan, GPRA, and the Office of Personnel Management
scorecard to develop its workforce strategy to achieve program goals and 2) is
addressing the requirement in the Foreign Relations Authorization Act for FY
2002-03 (H.R. 1646) directing BBG to submit to appropriate congressional
committees semiannual reports in FY 2002 and 2003 regarding efforts to diver-
sify its workforce. PMA:HC (IBO)


Planned

BBG Strategic Planning: Establishment and Verification of Perfor-
mance Measures: Previous OIG reports have pointed out BBG weaknesses in
strategic planning. This review will seek to improve BBG’s approach to manage-
ment. The improvements in strategic planning, especially with regard to the
establishment and verification of performance measures, are expected to
improve decision-making and link budgeting to performance. PMA:BI (IBO)


FAIR Act – Use of Domestic Staffing Model: The FAIR Act directs federal
agencies to issue an inventory each year of all commercial activities performed
by federal employees; that is, those activities that are not inherently governmen-
tal. OIG reported in 2002 that the Department had inconsistencies with its 2001
inventory. As a result, the Department began using the Domestic Staffing Model
in 2002 to generate its FAIR Act inventories. OIG will determine whether the
Domestic Staffing Model provides an appropriate and effective means for deter-
mining the inventories. PMA:CS (AUD)


STRATEGIC GOAL 4: THE DEPARTMENT AND BBG ENSURE
ACCOUNTABILITY AND PREVENT OR ELIMINATE FRAUD, WASTE,
ABUSE, AND MISMANAGEMENT IN PROGRAMS AND OPERATIONS.
Performance Goal 1: Identify a minimum of $7.8 million in potential
monetary benefits as a result of audit and investigative recommenda-
tions to improve the efficiency of Department operations and compli-
ance with applicable contracts and grant agreements and to identify
and eliminate waste, fraud, abuse, and mismanagement, as necessary.

Office of Inspector General FY 2003 Annual Work Plan                                 23
     Ongoing

     Audits of Selected Grantees and Contractors (Continuous): The Depart-
     ment provides billions of dollars annually in federal assistance and contracts to
     nongovernmental organizations that conduct federal programs and other related
     activities. Past reviews of these organizations identified instances of fraud,
     waste, and mismanagement, but many of these organizations are not subject
     to audit or no longer will be subject to audit under OMB requirements. When
     indications of problems exist or when requested by the Department, OIG will
     conduct audits of selected grantees and contractors to determine whether the
     organizations expended federal funds for the intended purpose of the agree-
     ments and in accordance with applicable federal laws and regulations related to
     the agreement terms and conditions. In addition, OIG conducts reviews of
     organizations’ proposed indirect cost rates. Currently, OIG has five grant reviews
     ongoing for FY 2003. PMA:FP (AUD)


     Planned

     Audits of Selected Grantees and Contractors (Continuous): The Depart-
     ment provides billions of dollars annually in federal assistance and contracts to
     nongovernmental organizations that conduct federal programs and other related
     activities. Past reviews of these organizations identified instances of fraud,
     waste, and mismanagement, but many of these organizations are not subject to
     audit or no longer will be subject to audit under OMB requirements. When
     indications of problems exist or when requested by the Department, OIG will
     conduct audits of selected grantees and contractors to determine whether the
     organizations expended federal funds for the intended purpose of the agree-
     ments and in accordance with applicable federal laws and regulations related to
     the agreement terms and conditions. In addition, OIG conducts reviews of
     organizations’ proposed indirect cost rates. Currently, OIG has two grant reviews
     planned for FY 2003. PMA:FP (AUD)

     Overseas Buildings Operations (OBO) Construction: As of August 2002,
     OBO had 14 new office building projects under construction, totaling $920 million.
     In addition, OBO planned to execute 10 more new office building projects,




24                                    Office of Inspector General FY 2003 Annual Work Plan
totaling $750 million, in FY 2002. OBO also had 45 rehabilitation projects valued
at $203 million and planned to execute 58 additional rehabilitation projects totaling
$50 million in FY 2002. OIG will select construction contracts, as appropriate,
and conduct financial and compliance audits to determine whether the contrac-
tors complied with the terms and conditions of the contracts. PMA:FP (AUD)



Performance Goal 2: Promote awareness and adherence to standards
of professional and ethical conduct and accountability; where neces-
sary, conduct thorough and expeditious investigations of fraud, waste,
abuse, and mismanagement.


Ongoing

U.S. Direct Assistance to Colombian National Police: In May 2002, the
Co-Chairman of the Senate Caucus on International Narcotics Control asked OIG
to follow up on press reports that $2 million in U.S. aid to the Colombian National
Police counternarcotics efforts was discovered “missing.” OIG is completing its
work and will issue a report detailing the fraud during the next semiannual report-
ing period. (AUD)


Investigations

Investigations are conducted in response to allegations from various sources,
including Department or BBG management and employees, other OIG units, the
OIG Hotline, law enforcement agencies, Congress, and the public. Investiga-
tions examine objectively and thoroughly situations that may involve violations of
law, abuse of rules and regulations, or other actions that could compromise the
integrity and effectiveness of Department programs and operations. In addition,
the Office of Investigations promotes awareness, understanding, and adherence
to standards of conduct and accountability through various proactive endeavors,
including participating in employee training sessions and issuing management
implication reports and fraud alert bulletins. (INV)




Office of Inspector General FY 2003 Annual Work Plan                                    25
26   Office of Inspector General FY 2003 Annual Work Plan
Projects Related to International Broadcasting

    •   Inspections of Diplomatic Missions and Department Bureaus

    •   Status of the Merger of Worldnet TV with VOA

    •   Effectiveness and Implementation of OCB New Program Initiatives

    •   Internet and New Technology Development (BBG)

    •   Survey of Radio Free Asia Activities

    •   Follow-up Survey of the Middle East Radio Network (MERN)

    •   Review of Personnel Practices at RFE/RL

    •   Federal Information Security Management Act Review for FY 2003—BBG

    •   Monitoring Contractor Performance at the BBG

    •   BBG’s Strategic Human Capital Management Plan

    •   BBG Strategic Planning: Establishment and Verification of Performance
        Measures




Office of Inspector General FY 2003 Annual Work Plan                            27
28   Office of Inspector General FY 2003 Annual Work Plan
Projects Supporting President’s Management
Agenda Initiatives

Strategic Management of Human Capital (HC)

    •   Effectiveness and Implementation of OCB New Program Initiatives
    •   Assignment Process for Hard-to-Fill Posts
    •   Review of Personnel Practices at RFE/RL
    •   BBG’s Strategic Human Capital Management Plan


Competitive Sourcing (CS)

    •   FAIR Act – Use of Domestic Staffing Model
    •   State/USAID Financial Management Integration


Improved Financial Performance (FP)

    •   Review of Financial Assistance Management
    •   Audits of the Department’s Financial Statements for FY 2001
    •   Consolidation of Financial Services at Charleston Financial Service Center
    •   Domestic Travel Card Program
    •   Status of the Department’s Financial Management Remediation Plan
    •   Data Reviews, Quality Control Reviews and Contract Audit Services
    •   Audit of the National Endowment for Democracy
    •   Audits of the Department’s Financial Statements for FY 2002 and 2003
    •   Oversight of the Regional Financial Management System Conversion
    •   Improper Payments
    •   Post Assignment Travel
    •   Audit of Unliquidated Obligations System and Procedures
    •   Foreign Currency Management
    •   Review of International Cooperative Administrative Support Services’
        Budgeting and Billing
    •   Monitoring Expired and Canceled Accounts
    •   Review of Energy Conservation
    •   Monitoring Contractor Performance at the BBG


Office of Inspector General FY 2003 Annual Work Plan                                 29
       •   Unauthorized Commitments—Domestic
       •   Unauthorized Commitments—Overseas
       •   DTS-PO Financial Contributions
       •   Audits of Selected Grantees and Contractors
       •   Overseas Buildings Operations Construction
       •   State/USAID Financial Management Integration

     Expanded Electronic Government (EG)
       •   Internet and New Technology Development—BBG
       •   Government Paperwork Elimination Act
       •   Department Efforts to Implement Knowledge Management and
           E-Diplo macy through FASI
       •   Review of Knowledge Management Initiatives
       •   Electronic Records Management
       •   Messaging System Modernization
       •   Review of the Integrated Logistics Management System

     Budget and Performance Integration (BI)
       •   Status of the Merger of Worldnet TV with VOA
       •   Refugee Admissions and Resettlement: Program Results
       •   Survey of Radio Free Asia Activities
       •   Followup Survey of the Middle East Radio Network
       •   BBG Strategic Planning: Establishment and Verification of Performance
           Measures

     Rightsizing U.S. Overseas Presence (RS)
       •   Inspections of Overseas Missions and Domestic Bureaus
       •   Overseas Building Operations Design and Construction




30                                  Office of Inspector General FY 2003 Annual Work Plan
     Projects Supporting OIG Strategic and
     Performance Goals
     (Bold indicates project supports an initiative in the President’s Management Agenda)

                                 PG1                                                                PG2

     •   Post/Bureau Management Inspections & Compliance               •   Survey of Radio Free Asia Activities (IBO)
         Follow Up Reviews (ISP)                                       •   Follow Up Survey of th Middle East
     •   Inspection of the Helsinki Regional Monitoring Office (IBO)       Radio Network (IBO)
                                                                       •   Refugee Admissions and Resettlement–
                                                                           Program Results (AUD)
SG                                                                     •   Domestic Passport Operations, Phase II–Passport Fraud
 1                                                                         Prevention Programs (ISP)
                                                                       •   Domestic Passport Operations, Phase III–Regional
                                                                           Passport Agency Operations and Management (ISP)
                                                                       •   Survey of Overseas Visa Operations (ISP)
                                                                       •   Immigrant Visa Diversity Lottery Program (ISP)
                                                                       •   Inspection of Bureau of Consular Affairs Visa Office (ISP)
                                                                       •   Overseas Passport Operations (ISP)
                                                                       •   Diplomatic Security/Consular Affairs Overseas Fraud
                                                                           Prevention Program (ISP)
                                                                       •   Inspection of the Bureau of Consular Affairs Executive
                                                                           Office and Consular Lookout and Support System (ISP)
                                                                       •   Status of Merger of Worldnet TV with VOA (IBO)
                                                                       •   Effectiveness and Implementation of OCB
                                                                           New Program Initiatives (IBO)
                                                                       •   Internet and New Technology Development (IBO)
                                                                       •   Enforcement of Export Controls (AUD)
                                                                       •   Cumulative Effects of Munitions Exports (AUD)
                                                                       •   Assignment Process for Hard-To-Fill Posts (AUD)




     •   Security and Intelligence Oversight Inspections and           •   Pilot Test, Information Security Inspection and
         Compliance Followup Reviews (SIO)                                 Evaluation Methodology-Lisbon (IT)
     •   Review of the Management of Classified Holdings               •   Pilot Test, Information Security Inspection and
         Overseas (SIO)                                                    Evaluation Methodology-Madrid (IT)
     •   Control of Communications Security Materials and              •   Information Security Inspection Evaluations
         Electronic Storage (SIO)
     •   Secure Shipments of Classified Information Processing
         Equipment (SIO)
     •   Review of the Department’s Unit Security Officer
SG       Program (SIO)
     •   Oversight of the Security of the Construction of a New
 2       Embassy Compound in Beijing (SIO)
     •   Management of Overseas Post Security Upgrade
         Projects (SIO)
     •   FISMA 03–Department of State (IT)
     •   FISMA 03–BBG (IT)
     •   Information Warfare Issues (IT)
     •   Vulnerability of Department Systems through USAID
         Network (IT)
     •   Intrusion Detection Effectiveness (IT)
     •   Monitoring Contractor Performance in Worldwide
         Local Guard Programs (AUD)
     •   Background Investigations of FSNs (SIO)
     •   DS Overseas Technical Security Inspection
         Program (SIO)


     Office of Inspector General FY 2003 Annual Work Plan                                                                               31
                                    PG 1                                                    PG 2

                                                                      •   BBG’s Strategic Human Capital Management
          •   Government Paperwork Elimination Act (IT)
                                                                          Plan (IBO)
          •   Department Efforts to Implement Knowledge
                                                                      •   BBG Strategic Planning: Establishment and
              Management & E-Diplomacy through FASI (IT)
                                                                          Verification of Performance Measures (IBO)
          •   Review of Knowledge Management Initiatives (IT)
                                                                      •   FAIR Act–Use of Domestic Staffing Model (AUD)
          •   Review of Financial Assistance Management (AUD)
          •   Overseas Building Operations (OBO) Design and
              Construction (AUD)
          •   Bogota Vehicle Procurement (AUD)
          •   Audits of the Department’s Financial Statements
              2001 (AUD)
          •   Consolidation of Financial Services at Charleston
              Financial Service Center (FSC) (AUD)
          •   Domestic Travel Card Program (AUD)
          •   Status of the Department’s Financial Management
              Remediation Plan (AUD)
          •   Review of Energy Conservation (AUD)
          •   Monitoring Contractor Performance at the BBG (AUD)
          •   Office of Foreign Missions Systems Contract (AUD)
     SG   •   DTS-PO Inventory (AUD)
          •   Electronic Records Management (IT)
      3
          •   Messaging System Modernization (IT)
          •   Review of the Integrated Logistics Management
              System (IT)
          •   Review of Personnel Practices at RFE/RL (IBO)
          •   Data Reviews, Quality Control Reviews (QCRs) and
              Contract Audit Services (AUD)
          •   Audit of the National Endowment for Democracy
              (AUD)
          •   Audits of the Department’s Financial Statements
              2002 and 2003 (AUD)
          •   Consolidation of Financial Services at Charleston
              FSC–RFMS Conversion (AUD)
          •   Improper Payments (AUD)
          •   Post Assignment Travel (AUD)
          •   Audit of Unliquidated Obligations System and
              Procedures (AUD)
          •   Foreign Currency Management (AUD)
          •   Review of International Cooperative Administrative
              Support Services’ Budgeting and Billing (AUD)
          •   Monitoring Expired and Canceled Accounts (AUD)
          •   Review of Demining Contract Issue (AUD)
          •   Unauthorized Commitments–Domestic (AUD)
          •   Review of Demining Contract Issues II (AUD)
          •   Vehicle Management (AUD)
          •   Unauthorized Commitments–Overseas (AUD)
          •   DTS-PO Financial Contributions (AUD)
          •   ONDCP Attestation Review (AUD)
          •   FSN Compensation and Benefits (AUD)
          •   State/USAID Financial Management Integration (AUD)




32                                                     Office of Inspector General FY 2003 Annual Work Plan
                          PG1                                                    PG2

     •   Audits of Selected Grantees and Contractors        •   U.S. Direct Assistance to Colombian National Police
SG       (AUD)                                                  (AUD)
 4   •   Overseas Buildings Operations (OBO) Construction   •   Outreach Activities
         (AUD)                                              •   Investigations and Hotline Activities




     Office of Inspector General FY 2003 Annual Work Plan                                                             33
34   Office of Inspector General FY 2003 Annual Work Plan
Glossary of Acronyms

                 BBG            Broadcasting Board of Governors
                   BI           Budget and Performance Integration
             CA/PPT             Office of Passport Services
                  CFR           Compliance Followup Review
               CLASS            Consular Lookout and Support System
                   CS           Competitive Sourcing
                   DS           Bureau of Diplomatic Security
                   DV           Diversity Visa
                   EB           Bureau of Economic and Business Affairs
                   EG           E-Government
                 FASI           Foreign Affairs System Integration
               FISMA            Federal Information Security Management Act
                   FP           Improved Financial Performance
                  FSC           Financial Services Center
                  FSN           Foreign Service National
                 GAO            General Accounting Office
                   HC           Strategic Management of Human Capital
               ICASS            International Cooperative Administrative
                                Support Service
                  IBB           International Broadcasting Bureau
                ILMS            Integrated Logistics Management Systems
                   IO           Bureau of International Organization Affairs
                     L          Office of the Legal Adviser
                  LGP           Local Guard Programs
               MERN             Middle East Radio Network




Office of Inspector General FY 2003 Annual Work Plan                           35
       NIS    The New Independent States
       OBO    Office of Overseas Building Operations
       OCB    Office of Cuba Broadcasting
      OMB     Office of Management and Budget
     ONDCP    Office of National Drug Control Policy
       PMA    President’s Management Agenda
       RFA    Radio Free Asia
     RFE/RL   Radio Free Europe/Radio Liberty
        RS    Rightsizing Overseas Presence
     S/CPR    Office of the Chief of Protocol
     USAID    U.S. Agency for International Development
      USUN    U.S. Mission to the United Nations, New York
       VOA    Voice Of America
      WHA     Bureau of Western Hemisphere Affairs




36                Office of Inspector General FY 2003 Annual Work Plan
38   Office of Inspector General FY 2003 Annual Work Plan
